                                     SOCIAL SECURITY
MEMORANDUM

Date:   January 24, 2011                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance   Indicator Audit: Disability Process (A-15-10-11074)


        We contracted with KPMG to evaluate 10 of the Social Security Administration’s
        performance indicators (PI) established to comply with the Government Performance
        and Results Act. The attached final report presents the results of three of the PIs
        evaluated. For the PIs included in this audit, KPMG’s objectives were to:

        1. Comprehend and document the sources of data that were collected to report on the
           specified performance indicators.

        2. Identify and test critical controls (both electronic data processing and manual) of
           systems from which the specified performance data were generated.

        3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
           the underlying data for the specified performance indicators.

        4. Recalculate each measure to ascertain its accuracy.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   PERFORMANCE INDICATOR AUDIT:
        DISABILITY PROCESS

      January 2011   A-15-10-11074




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

 Conduct and supervise independent and objective audits and investigations
   relating to agency programs and operations.
 Promote economy, effectiveness, and efficiency within the agency.
 Prevent and detect fraud, waste, and abuse in agency programs and
  operations.
 Review and make recommendations regarding existing and proposed
  legislation and regulations relating to agency programs and operations.
 Keep the agency head and the Congress fully and currently informed of
  problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

 Independence to determine what reviews to perform.
 Access to all information necessary for the reviews.
 Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                    Executive Summary
OBJECTIVE
For this audit of the Social Security Administration’s (SSA) performance indicators (PI),
Achieve the target percentage of initial disability claims identified as a Quick Disability
Determination or a Compassionate Allowance; Process the budgeted number of initial
disability claims; and Update the medical Listing of Impairments for Fiscal Year 2009,
our objectives were to:

1. Comprehend and document the sources of data that were collected to report on the
   specified PI.

2. Identify and test critical controls (both electronic data processing and manual) of
   systems from which the specified performance data were generated.

3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
   the underlying data for the specified PI.

4. Recalculate each measure to ascertain its accuracy.

BACKGROUND
The Government Performance and Results Act of 1993 (GPRA)1 requires that SSA
develop PIs that assess each program activity’s relevant service levels and outcomes.2
GPRA also calls for a description of the means employed to verify and validate the
measured values used to report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C. and
39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).


Performance Indicator Audit: Disability Process (A-15-10-11074)                                        i
RESULTS OF REVIEW
We did not identify any significant findings related to the internal controls, adequacy,
accuracy, reasonableness, completeness, and consistency of the underlying data for
the PIs subject to audit.

In response to prior PI audits, SSA stated that it did not maintain data to support some
PIs as a result of computer storage capacity and staffing resources. Over the past
several years, technology has evolved. Therefore, this is an opportune time for SSA to
reevaluate computer storage capacity. In a prior audit, SSA also quoted the Office of
Management and Budget’s (OMB) Circular A-11, Preparation, Submission and
Execution of the Budget, which stated, “Performance data need not be perfect to be
reliable, particularly if the cost and effort to secure the best performance data will
exceed the value of any data so obtained.” 4 Currently, OMB Circular A-11 states that
“Performance data need not be perfect to be reliable; however, significant data
limitations can lead to inaccurate assessments and distort performance results.
Examples of data limitations include imprecise measurement and recordings,
incomplete data, and inconsistencies in data collection procedures.”5 Additionally, OMB
Circular A-11, section 230.5, states that verification and validation of performance data
to support the general accuracy and reliability of performance information, reduces the
risk of inaccurate performance data, and provides a sufficient level of confidence to the
Congress and the public that the information presented is credible. 6 Although we are
not making formal recommendations for this report, we encourage SSA to revisit the
issue of maintaining data to support the PIs reported in the Agency’s annual
Performance and Accountability Report. Maintaining the supporting data would enable
third-party evaluations of the PI, as suggested by Circular A-11.




4
    SSA OIG, Performance Indicator Audit: Outstanding Debt (A-02-05-15116, 1/27/06), p. D-2.
5
    OMB Circular A-11, Preparation, Submission and Execution of the Budget, July 2010, Section 230.5
6
    Ibid


Performance Indicator Audit: Disability Process (A-15-10-11074)                                        ii
                                                                     Table of Contents
INTRODUCTION                                                                                                             1

RESULTS OF REVIEW .................................................................................................. 5

    Achieve the Target Percentage of Initial Disability Claims Identified as a
    Quality Disability Determination or a Compassionate Allowance ............................... 5
    Process the Budgeted Number of Initial Disability Claims ......................................... 7
    Update the Medical Listing of Impairments .............................................................. 10
CONCLUSIONS ............................................................................................................ 12

APPENDICES

APPENDIX A - Acronyms

APPENDIX B - Scope and Methodology

APPENDIX C - Process Flowchart - Disability Process

APPENDIX D - Process Flowchart Acronyms

APPENDIX E – Agency Comments




Performance Indicator Audit: Disability Process (A-15-10-11074)
                                                                          Introduction
OBJECTIVE
The Government Performance and Results Act of 1993 (GPRA)1 requires that the
Social Security Administration (SSA) develop performance indicators (PI) that assess
the relevant service levels and outcomes of each program activity. 2 GPRA also calls for
a description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

For this audit of SSA’s PIs, Achieve the target percentage of initial disability claims
identified as a Quick Disability Determination (QDD) or a Compassionate Allowance
(CAL); Process the budgeted number of initial disability claims; and Update the medical
Listing of Impairments for Fiscal Year (FY) 2009, our objectives were to:

1. Comprehend and document the sources of data that were collected to report on the
   specified PI.

2. Identify and test critical controls (both electronic data processing and manual) of
   systems from which the specified performance data were generated.

3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
   the underlying data for the specified PI.

4. Recalculate each measure to ascertain its accuracy.

                                         ******************




1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C.,
and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).



Performance Indicator Audit: Disability Process (A-15-10-11074)                                         1
This performance audit did not constitute an audit of financial statements in accordance
with Government Auditing Standards. KPMG was not engaged to, and did not, render
an opinion on SSA’s internal controls over financial reporting or over financial
management systems (for purposes of Office of Management and Budget [OMB]
Circular No. A-127, Financial Management Systems, July 23, 1993, as revised). KPMG
cautions that projecting the results of our evaluation to future periods is subject to the
risks that controls may become inadequate because of changes in conditions or
because compliance with controls may deteriorate.

BACKGROUND
We audited the following PIs, which were included in SSA’s FY 2009 Performance and
Accountability Report (PAR).

        Performance Indicator                   FY 2009 – Target         FY 2009 – Actual

    Achieve the target percentage                 3.8 percent                3.8 percent
    of initial disability claims
    identified as a QDD or a CAL 4
    Process the budgeted number                    2,637,000                 2,812,918
    of initial disability claims 5
    Update the medical Listing of         Develop and submit at        Published eight Social
    Impairments 6                         least three regulatory       Security Rulings in the
                                          actions or Social Security   Federal Register
                                          Rulings

The strategic objectives related to these PIs are: Fast-tracking cases that obviously
meet disability standards and Regularly update disability policies and procedures. All
three PIs and strategic objectives correspond to SSA’s Strategic Goal 2: Improve the
Speed and Quality of SSA’s Disability Process.

SSA’s organizational mission is to “. . . deliver Social Security services that meet the
changing needs of the public.” 7 SSA administers the Old-Age, Survivors and Disability
Insurance (OASDI) and Supplemental Security Income (SSI) programs. The OASDI
program, authorized by Title II of the Social Security Act (Act), provides income for
eligible workers and eligible members of their families and survivors. 8 Disability
Insurance (DI) provides entitlement benefits under Title II of the Act. DI provides

4
    FY 2009 PAR, p. 52.
5
    FY 2009 PAR, p. 53.
6
    FY 2009 PAR, p. 56.
7
    FY 2009 PAR, p. 7.
8
    The Act §§ 201-234, 42 U.S.C. §§ 401-434.



Performance Indicator Audit: Disability Process (A-15-10-11074)                              2
income for eligible workers with qualifying disabilities and eligible members of their
families, before those workers reach retirement age. 9 SSI, authorized by Title XVI of
the Act, was designed as a needs-based program to provide or supplement the income
of aged, blind, and/or disabled individuals with limited income and resources.10 A
claimant may receive disability benefits under the DI and/or SSI programs.

Based on the Act, an individual found to be disabled may qualify for disability benefits if
the following two criteria are met.

•      An individual must be unable to engage in substantial gainful activity (SGA) because
       of a medically determinable physical or mental impairment. 11
•      The medical condition(s) must be expected to result in death or has lasted or can be
       expected to last for a period of not less than 12 months.12

SSA has a five-step sequential process for evaluating disability for adults, which
generally follows the definition of disability in the Act and the related regulations. 13 The
adult disability determination process is as follows.

1. SSA generally considers whether the claimant is still working. If the claimant is not
   engaging in SGA, the claim is sent for a medical determination of disability. When
   the claim is initially developed, the adjudicator concurrently requests all the evidence
   needed for consideration at Steps 2 through 5 of the sequential evaluation process.
   The adjudication process ends when SSA obtains evidence sufficient to allow the
   claim or if the claim is a denial after Step 5.
2. SSA determines whether the claimant’s condition is severe. If a claimant has a
   medically determinable severe impairment, the Agency applies Step 3 and reviews
   the Listing of Impairments.
3. If the severity of the impairment meets or medically equals the Listing of
   Impairments, the individual is determined to be disabled.




9
    The Act § 223, 42 U.S.C. § 423.
10
     The Act §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.
11
     The Act § 223 (d)(1), 42 U.S.C. § 423(d)(1).
12
     Ibid.
13
     Disability Benefits publication, p.9 (http://ssa.gov/pubs/10029.pdf).



Performance Indicator Audit: Disability Process (A-15-10-11074)                                 3
4. The Agency determines whether the claimant can perform past relevant work,
   considering his or her residual functional capacity (RFC) 14 and the physical and
   mental demands of the work he or she performed. If the claimant can perform past
   relevant work, the claim is denied. If the claimant cannot perform past relevant work,
   the Agency applies Step 5.
5. The Agency determines whether the claimant can perform any other work,
   considering his or her RFC, age, education, and past work experience. If the
   claimant cannot perform any other work, then the Agency finds him or her disabled.

The Listing of Impairments describes, for each major body system, impairments
considered severe enough to prevent an individual from performing any gainful activity
(or in the case of children under age 18 applying for SSI, severe enough to cause
marked and severe functional limitations). Most of the listed impairments are
permanent or expected to result in death, or the listing includes a specific statement of
duration. For all other listings, the evidence must show that the impairment has lasted
or is expected to last for a continuous period of at least 12 months. The criteria in the
Listing of Impairments are applicable to evaluation of claims for disability benefits under
both the SSI and DI programs.

However, the absence of a listing-level impairment does not mean the individual is not
disabled. Rather, if the individual’s impairment does not meet or medically equal a
listing, it merely requires the adjudicator to move on to step four of the process noted
above.




14
  RFC describes what an individual is able to do, despite functional limitations resulting from a medically
determinable impairment(s) and impairment-related symptoms, 20 C.F.R. §§ 404.1545(a) and 416.945(a).


Performance Indicator Audit: Disability Process (A-15-10-11074)                                          4
                                                     Results of Review
ACHIEVE THE TARGET PERCENTAGE OF INITIAL DISABILITY
CLAIMS IDENTIFIED AS A QDD OR A CAL
INDICATOR BACKGROUND

SSA has an obligation to provide benefits quickly to applicants whose medical
conditions are so serious that the condition obviously meets SSA’s disability standards.
Under SSA’s QDD and CAL initiatives, cases receive expedited processing within the
context of the existing disability determination process. Expedited processing does not
mean automatic approval or denial of a claim. Initial disability claims identified as QDD
have a greater likelihood of disability allowance based on such factors as the claimant’s
medical condition and educational and work history, as well as objective medical
evidence. CALs are a way of quickly identifying diseases and other medical conditions
that invariably qualify under the Listing of Impairments based on minimal, objective
medical information. CALs allow SSA to target the most obviously disabled individuals
for allowances based on objective medical information that can be obtained quickly. A
QDD or CAL designation indicates the case will receive expedited processing within the
context of the existing disability determination process.

The QDD pilot was conducted in the Boston Region in 2006 under the Disability Service
Improvement initiative. The QDD process uses a Predictive Model (PM) to
electronically identify initial disability cases where there is a greater likelihood that

   •   the claimant is disabled;
   •   evidence of the claimant’s allegations can be easily and quickly verified; and
   •   the case can be processed within 20 calendar days of receipt in the disability
       determination services (DDS).

Between October 2007 and February 2008, all 10 regions implemented the QDD
program to allow for certain disability claims to be expedited. At the point of transfer
from the Modernized Claims System (MCS) to the Electronic Disability Collect System
(EDCS) and the DDS, all electronic claims are sent to the QDD PM for scoring in real
time. Initial disability claims that are submitted via hardcopy (less than 1 percent of all
claims filed) are not considered for QDD. To be considered, a claim must be
electronically submitted to the QDD PM upon transfer to the EDCS. The QDD PM
assigns a percentile rank (between 0 and 1) to each initial disability claim based on the
likelihood the claim will result in a quick disability allowance. Various factors, such as
the alleged severity of the disability and available evidence to support the claim are
considered in the scoring process, which takes less than 1 second to complete.

The Office of Program Development and Research (OPDR) established a threshold for
each DDS to identify a target percentage of initial disability claims as a QDD. The


Performance Indicator Audit: Disability Process (A-15-10-11074)                               5
threshold identifies the percentile rank the initial disability claim must achieve to qualify
as a QDD for each DDS. Per the FY 2009 PAR, SSA’s target was to identify
3.8 percent of initial disability claims as either a QDD or a CAL in September 2009. Of
that amount, SSA targeted 3.34 percent of initial disability claims as a QDD in that
period, and the remainder of .46 percent as CAL only. The threshold is different for
each DDS and is based on the Agency’s strategic goals, the projected (or budgeted)
number of initial disability claims, and each DDS’ past performance. The threshold is
generally adjusted twice a year for such factors as the volume of claims received to date
at each DDS office, the target percentage of initial disability claims to be identified as a
QDD for the FY, and changes to the PM.

Although the system can accept different thresholds for DI only, SSI only Adult,
Concurrent SSI/DI, and SSI Children’s cases, the same threshold was used for all types
of cases at a particular DDS during the audit period. OPDR initiates all changes to the
thresholds for each DDS, which does not have the authority to make the changes within
the QDD PM. The changes to the thresholds are implemented by the Office of Disability
Systems (ODS). ODS is the only component that may change the thresholds table.
However, OPDR is responsible for reviewing the changes to the thresholds within the
QDD PM to ensure they are set correctly for each DDS.

DDSs are only made aware of whether a case is identified as QDD, not the percentile
rank assigned to a case or the threshold for identifying a QDD. If a claim does not
qualify for the program, it may be removed from QDD, added to the regular workload,
and processed in the order received.

The CAL program was announced in December 2007 and began to process the first live
cases in October 2008. In addition to the QDD PM, an initial disability application is
submitted to the CAL PM upon transfer from the MCS or the Modernized Supplemental
Security Income Claims System (MSSICS) to the EDCS. The CAL PM uses software
with global reference tables, which compare the claimant’s allegations to names and
conditions to identify a CAL as a disabling condition.

CALs are a way of quickly identifying diseases and other medical conditions that
invariably qualify under the Listing of Impairments, based on minimal objective medical
information. If the conditions or relevant symptoms from the listing match the alleged
disability noted in an individual’s claim, the case is identified as a CAL. Claims
identified as a CAL are expedited through the disability determination process. A CAL
case can also be manually added at the DDS.

It is important to note that the identification of a case as a QDD or a CAL does not result
in an automatic disability allowance. Rather, QDD and CAL cases are reviewed by SSA
employees under the same regulations as standard cases but in an expedited manner.
These cases are considered the top priority for the respective DDS office. Data




Performance Indicator Audit: Disability Process (A-15-10-11074)                            6
concerning the processing time of QDD and CAL allowances are available on SSA’s
Executive and Management Information System. However, QDD and CAL processing
times are not reported in SSA’s PAR as a PI.

The calculation of the performance target was determined by dividing the total number
of initial disability claims identified as QDD, CAL, or both by the total number of
electronic initial disability claims filed the last month of the current FY.

Performance Indicator Calculation

                                                   Total number of initial disability cases
 Percentage of initial disability claims                identified as a QDD or a CAL
                                             =
    identified as a QDD or a CAL                  Total number of electronic initial disability
                                                                    claims

Findings

We did not identify any significant findings related to the internal controls, adequacy,
accuracy, reasonableness, completeness, and consistency of the underlying data for
the specified PI in the FY 2009 PAR.

PROCESS THE BUDGETED NUMBER OF INITIAL DISABILITY CLAIMS
INDICATOR BACKGROUND

Claimants initiate a disability claim by filing an initial disability application and Form
SSA-3368, Adult Disability Report, or Form SSA-3820, Child Disability Report. The
application and Forms SSA-3368 or SSA-3820 15 can be submitted to SSA by a claimant
in one of three ways:

      •   over the Internet (via the SSA Website),
      •   over the telephone, or
      •   by visiting a local field office.

All initial disability applications are processed at 1 of more than 1,300 field offices, which
are aggregated into 10 regions. Regardless of how a claim is filed, a local field office
representative reviews all initial disability claims submitted. There are various other
forms that may also be required depending on a claimant’s work status, age, disability
allegations, mental health, income, work history, and education. However, Forms
SSA-3368 and SSA-3820 are required for all claimants as these Forms contain the
information necessary for determining whether an individual qualifies for DI or SSI.




15
     This form cannot be filed online.


Performance Indicator Audit: Disability Process (A-15-10-11074)                               7
For Title II claims submitted electronically via SSA’s Website (www.ssa.gov), the
claimant’s initial disability application is automatically entered into SSA’s MCS in real-
time. For claims submitted by telephone or in person at a local SSA field office, a
claims representative must enter the claimant’s information into MCS for Title II claims
or MSSICS for Title XVI claims. Once a claim is submitted into MCS or MSSICS, the
initial disability application, disability report, and all relevant supporting documentation
(medical records, expert testimony, work history, etc.) must be either scanned (for paper
documents) or transmitted electronically (when available) into EDCS. The record is
stored in EDCS, and the claim is concurrently transmitted to the applicable DDS office.
Generally, claims are transferred to a DDS based on the claimant’s address, but the
Office of Disability Determination retains the ability to transfer cases between DDSs
depending on the disability application workload.

To evaluate an initial disability claim, a DDS claims clerk must download the disability
claim application and supporting documentation from EDCS, eView, and MCS or
MSSICS. Once downloaded, the disability claim is assigned to a disability examiner
based on the examiner’s skill level, difficulty of the claim, disability allegations, and other
factors. Although the DDSs are federally funded, each DDS is staffed by State
employees; therefore, medical determinations are made at the State level, rather than
by SSA. While decisions are made at the State level, States are required to comply
with regulations, rulings, and other written guidelines, including standards established
by SSA, and other provisions of Federal law and regulations that apply to the State. 16
In addition, each DDS uses its own applicable State legacy information technology
system (that is, Midas, Iron Data, Versa, Cornhusker, and New York) to process its
respective initial disability claims.

Upon initial receipt of the claimant’s information from EDCS, a disability examiner
reviews the Form SSA-3368 or SSA-3820 and sends letters to the claimant,
corresponding medical sources, and any other third parties to request any necessary
additional information to support the individual’s claim. These requests are made by
mail rather than electronically because of the sensitive nature of the documentation
requested and related personally identifiable information. Claimants are permitted
approximately 60 days to respond to these requests. However, this is not the absolute
deadline—additional information may be accepted after 60 days depending on various
extenuating circumstances (for example, the claimant’s state of mental health, age,
responsiveness, and existence of medical evidence). Disability examiners refer to the
guidelines in SSA’s Program Operations Manual System to determine the deadline for
receiving responses to the request for additional information.

If the examiner considers a disability allowance to be likely, and other medical evidence
is not available, examiners may schedule an examination by a medical or vocational
expert, which is fully funded by SSA. An examiner may also put a hold on a case if the
severity of the impairment cannot be determined or the expected length of the

16
     SSA, Program Operations Manual System (POMS), DI 39501.020.


Performance Indicator Audit: Disability Process (A-15-10-11074)                              8
impairment is unknown. As noted above, the medical condition(s) must be expected to
result in death or has lasted or can be expected to last for a period of not less than
12 months to be considered eligible for disability benefits. 17 Examiners are required to
periodically follow up with the claimant to ascertain the status of outstanding requests to
expedite the determination process. An examiner must also determine the date of
disability onset, which is defined as the date on which SSA considers the individual to
be disabled.

A disability determination can be favorable (full payment), be less than fully favorable
(less than full payment), be denied (no payment), or result in a request for additional
information. After a decision has been reached, the claim is updated in MCS or
MSSICS, and the reason supporting the decision is provided by the adjudicator, who
prepares the case for closure. In the event of denial or a less than fully favorable
decision, the adjudicator writes a letter to the claimant explaining the medical
determination and the claimant’s appeal rights. If the claim is allowed, an allowance
letter with payment of the claim is sent from the field office or SSA Payment Center.
After the payment or denial letter is sent, the initial disability claim is considered
processed. The initial disability claim is considered processed at this point for the
purposes of reporting in SSA’s PAR.

The Office of Budget (OB), in collaboration with the Office of Disability Determinations
(ODD), determines the budgeted number of claims to be processed by each State DDS,
based on the anticipated appropriations to be received from Congress and the projected
future number of initial disability claims for the respective FY. This analysis is
conducted on a quarterly basis. The State DDSs have some negotiating power in
establishing the budgeted number of initial disability claims to be processed. However,
the final budgeted number of initial disability applications to be processed at each DDS
is determined by ODD.

The performance target is determined by summarizing the number of Social Security
and SSI initial disability claims processed in the DDS or other Agency components.

Performance Indicator Calculation
                                                 Total number of initial disability claims
     The budgeted number of initial
                                         =    processed during the period October 1, 2008
      disability claims processed
                                                     through September 30, 2009

Findings

We did not identify any significant findings related to the internal controls, adequacy,
accuracy, reasonableness, completeness, and consistency of the underlying data for
the specified PI in the FY 2009 PAR. However, our audit identified areas for

17
     SSA, POMS DI 00115.015.


Performance Indicator Audit: Disability Process (A-15-10-11074)                            9
improvement related to the accuracy of the results presented and disclosed in the PAR.

Accuracy of Underlying Data
In accordance with the Government Accountability Office’s (GAO) Standards for Internal
Control in the Federal Government, transactions should be recorded completely,
accurately, and timely. 18 We noted that the underlying data supporting the initial
disability claims submitted and processed by SSA during the period October 1, 2008
through September 30, 2009 did not agree with the amount reported in SSA’s PAR.
The underlying data provided identified 2,818,356 initial disability claims processed
during FY 2009 versus 2,812,918 stated in the PAR. The difference of 5,438 claims
was attributed to SSA’s data retention policies for PIs. The data retention policies do
not require that an adequate audit trail be maintained to support the amounts reported
in the PAR. As a result, the amount of initial disability claims processed during FY 2009
as reported in the PAR was understated by 5,438 claims, based on supporting
documentation.

UPDATE THE MEDICAL LISTING OF IMPAIRMENTS

INDICATOR BACKGROUND

The process to update the medical Listing of Impairments begins with the publication of
a regulation. Per SSA’s Policy Work Plan, the Office of Retirement and Disability Policy
(ORDP) developed program policy rules and regulations and assisted with the
development of legislative proposals for SSA. ORDP also assisted in developing public
policy by conducting and disseminating research, statistics, papers, and reports within
the Agency, to stakeholders, and the public.

Business Process for Revising the Listings of Impairments
 •   Step 1: Information Gathering - After publication of a new regulation, SSA initiates
     an information-gathering process within the Agency to evaluate the new regulation.
     SSA collects questions and answers from users, reviews Request for Program
     Consultation cases and Policy Feedback data, reviews responses to the 1-year
     follow-up user study, and researches literature provided by SSA medical and
     analyst staff. Outside the Agency, SSA gathers input and reactions from advocacy
     groups and reviews responses from the 1-year external study provided to groups on
     the SSA contact list. SSA publishes an Advanced Notice of Proposed Rulemaking
     (ANPR) in the Federal Register and solicits feedback from the general public. SSA
     holds outreach meetings with expert medical panelists, advocates, adjudicators,
     and patients. SSA has also contracted with the Institute of Medicine to form a
     consensus committee of medical experts to provide recommendations for listing
     improvements.


18
  GAO Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, November
1999, p.15.


Performance Indicator Audit: Disability Process (A-15-10-11074)                                10
 •   Step 2: Draft Notice of Proposed Rulemaking (NPRM) - SSA then drafts the NPRM.
     Within this step, an issue paper is prepared, and the proposed changes to the
     listings and introductory text are drafted by the body system team of analysts,
     medical officers, and other Agency medical consultants with occasional input from
     outside experts, and the Chief Policy Officer. SSA tests the proposed listing
     changes using previously adjudicated cases. The Office of the Actuary also
     performs a cost-benefit analysis and actuarial assessment.
 •   Step 3: Complete Review Process and Publish NPRM in the Federal Register for
     Public Comment - SSA obtains edits and other comments from the Commissioner
     of Social Security’s (COSS) staff. The document is revised based on COSS staff
     comments and those from other components. All components that submitted
     comments must sign off on the document. In addition, the Deputy Commissioner
     and COSS must approve the document. After OMB approves the document, the
     NPRM is published in the Federal Register for public comment.
 •   Step 4: Publish Final Rule - Before the Final Rule can be published in the Federal
     Register, SSA must review and respond to all public comments. If the proposed
     rule is revised based on the comments, approval from the SSA components
     responsible, Deputy Commissioner, and COSS must be obtained again based on
     the new version of the document. After all the necessary approvals are obtained,
     the Final Rule is published in the Federal Register. SSA provides training on the
     new rule for all adjudicators though interactive video tele-training and other types of
     notifications. The entire revision process spans approximately 5 to 7 years, though
     SSA is actively working to reduce this time.

The performance target is determined by developing regulatory actions or Social
Security Rulings related to updating the medical Listing of Impairments for publication in
the Federal Register. Regulatory Actions include ANPRs, NPRMs, Final Rules,
Rulings, or other Federal Register notices.

Performance Indicator Calculation
                                                 Total number of Social Security Rulings or
     Update the medical Listing of
                                             =      Regulatory Actions Developed and
             Impairments
                                                     Submitted to the Federal Register

Findings

We did not identify any significant findings related to the internal controls, adequacy,
accuracy, reasonableness, completeness, and consistency of the underlying data for
the specified PI in the FY 2009 PAR.




Performance Indicator Audit: Disability Process (A-15-10-11074)                            11
                                                                         Conclusions
We did not identify any significant findings related to the internal controls, adequacy,
accuracy, reasonableness, completeness, and consistency of the underlying data for
the indicators subject to audit. However, our audit identified areas for improvement
related to the accuracy of the results presented and disclosed in the PAR.

In response to prior PI audits, SSA stated that it did not maintain data to support some
PIs as a result of computer storage capacity and staffing resources. Over the past
several years, technology has evolved. Therefore, this is an opportune time for SSA to
reevaluate computer storage capacity. In a prior audit, SSA also quoted OMB Circular
A-11, Preparation, Submission and Execution of the Budget, which stated,
“Performance data need not be perfect to be reliable, particularly if the cost and effort to
secure the best performance data will exceed the value of any data so obtained.”19
Currently, OMB Circular A-11 states that “Performance data need not be perfect to be
reliable; however, significant data limitations can lead to inaccurate assessments and
distort performance results. Examples of data limitations include imprecise
measurement and recordings, incomplete data, and inconsistencies in data collection
procedures.” 20 Additionally, OMB Circular A-11, section 230.5, states that verification
and validation of performance data to support the general accuracy and reliability of
performance information, reduces the risk of inaccurate performance data, and provides
a sufficient level of confidence to the Congress and the public that the information
presented is credible. 21 Although we are not making formal recommendations in this
report, we encourage SSA to revisit the issue of maintaining data to support the PIs
reported in the Agency’s annual PAR. Maintaining the supporting data would enable
third-party evaluations of the PI, as suggested by Circular A-11.

AGENCY COMMENTS

SSA believes that the number reported in the PAR for the number of disability claims
processed is correct and has requested the data KPMG used in recalculating the
number of disability claims processed. In addition, SSA believes that KPMG’s
statement regarding improving the process of collecting data should be removed since
no significant findings were identified.

The text of SSA’s general comments can be found in Appendix D.




19
     SSA OIG, Performance Indicator Audit: Outstanding Debt (A-02-05-15116, 1/27/06), p. D-2.
20
     OMB Circular A-11, Preparation, Submission and Execution of the Budget, July 2010, Section 230.5
21
     Ibid.



Performance Indicator Audit: Disability Process (A-15-10-11074)                                         12
KPMG Response

KPMG has provided the source of the data for the recalculated number of disability
claims processed. As previously stated, the Agency was unable to provide the detailed
supporting data for the number of disability claims processed as reported in the PAR.
We did not make a statement to improve the process for collecting data; rather our
statement was to reevaluate computer storage capacity. While we did not identify any
significant findings, we believe our statement to reevaluate computer storage capacity is
appropriate and will remain in the report.

We have addressed the technical comments as deemed appropriate.




Performance Indicator Audit: Disability Process (A-15-10-11074)                        13
                                            Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowchart – Disability Process

APPENDIX D – Process Flowchart Acronyms

APPENDIX E – Agency Comments




Performance Indicator Audit: Disability Process (A-15-10-11074)
                                                                      Appendix A
Acronyms
Act           Social Security Act
ANPR          Advanced Notice of Proposed Rulemaking
CAL           Compassionate Allowance
COSS          Commissioner of Social Security
DDS           Disability Determination Services
DI            Disability Insurance
EDCS          Electronic Disability Collect System
FY            Fiscal Year
GAO           Government Accountability Office
GPRA          Government Performance and Results Act
MCS           Modernized Claims System
MSSICS        Modernized Supplemental Security Income Claims System
NPRM          Notice of Proposed Rulemaking
OASDI         Old-Age, Survivors and Disability Insurance
ODD           Office of Disability Determinations
ODS           Office of Disability Systems
OMB           Office of Management and Budget
OPDR          Office of Program Development and Research
ORDP          Office of Retirement and Disability Policy
PAR           Performance and Accountability Report
PI            Performance Indicator
PM            Predictive Model
POMS          Program Operations Manual System
QDD           Quick Disability Determination
RFC           Residual Functional Capacity
SGA           Substantial Gainful Activity
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C.        United States Code




Performance Indicator Audit: Disability Process (A-15-10-11074)
                                                                       Appendix B

Scope and Methodology
We obtained an understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) business processes related to
performance indicators (PI) Achieve the target percentage of initial disability claims
identified as a Quick Disability Determination or a Compassionate Allowance; Process
the budgeted number of initial disability claims; and Update the medical Listing of
Impairments. This was completed through research and interviewing key SSA
personnel responsible for PIs. The primary SSA components responsible for these
indicators are the Offices of Disability Determinations; Disability Programs; and Program
Development and Research.

Through inquiry, observation, and other substantive testing, including testing source
documentation, we performed the following.

   •   Reviewed prior SSA, Government Accountability Office, Office of the Inspector
       General, and other reports related to SSA’s GPRA performance and related
       information systems.
   •   Reviewed applicable laws, regulations, and SSA policy.
   •   Interviewed appropriate SSA personnel to confirm our understanding of the PIs.
   •   Flowcharted the processes (see Appendix C).
   •   Documented the data sources used to report on the PIs.
   •   Identified and tested the critical (key) internal controls (automated and manual)
       over the systems from which performance data are generated.
   •   Determined the adequacy, accuracy, reasonableness, completeness, and
       consistency of performance data reported in the Fiscal Year 2009 Performance
       and Accountability Report.
   •   Recalculated each measure to ascertain its accuracy, as necessary.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related PIs. Our understanding of the Agency’s mission, goals, objectives, and
processes was used to determine whether the PI appeared to be valid and appropriate.

We conducted our performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.


Performance Indicator Audit: Disability Process (A-15-10-11074)
                                                                         Appendix C

Process Flowchart – Disability Process1




1
    See Appendix D for definitions of the acronyms used in this chart.


Performance Indicator Audit: Disability Process (A-15-10-11074)
                                                                   Appendix D

Process Flowchart Acronyms
CAL        Compassionate Allowance
CR         Customer Representative
DB         Database
DDS        Disability Determination Services
DOORS Detailed Office Organization Resource System
EDCS       Electronic Disability Collect System
EFI        Electronic Folder Interface
EMIS       Executive Management Information System
HTBLC      Hierarchical Table for Local Management Information
MCS        Modernized Claim System
MEMAP Electronic Service Delivery/Internet Management Information Architecture Project
MI         Management Information
MIAR       Management Information Architecture
MIDIB      Management Information Disability
NDDSS      National Disability Determination Services System
ODS        Operational Data Store
OEEAS      Office of Earnings, Enumeration, and Administrative Systems
ORSIS      Office of Retirement and Survivors Insurance Systems
PAR        Performance and Accountability Report
QDD        Quick Disability Determination
SDR        Structured Data Repository
WMI        Workload Management Information




Performance Indicator Audit: Disability Process (A-15-10-11074)
                                                                  Appendix E

Agency Comments




Performance Indicator Audit: Disability Process (A-15-10-11074)
                                               Social Security
MEMORANDUM


Date:      January 14, 2011                                                      Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis/s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Performance Indicator Audit: Disability
           Process” (A-15-10-11074)--INFORMATION


           Thank you for the opportunity to review the draft report. Attached is our response
           to the report.

           Please let me know if we can be of further assistance. You may direct staff inquiries
           to Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410)
           966-6975.

           Attachment




           Performance Indicator Audit: Disability Process (A-15-10-11074)
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PERFORMANCE INDICATOR AUDIT: DISABILITY PROCESS ”
(A-15-10-11074)

Thank you for the opportunity to review the subject report. We offer the following.

GENERAL COMMENT

You reviewed three of our performance indicators and stated, “We did not identify any
significant findings related to the internal controls, adequacy, accuracy, reasonableness,
completeness, and consistency of the underlying data for the specified PI in the FY 2009 PAR.”
You noted one alleged discrepancy for initial disability claims processed in fiscal year (FY)
2009. We reported 2,812,918; you recalculated the number at 2,818,356, a difference of 5,438.
We believe the number reported in the Performance and Accountability (PAR) is correct. Please
provide us with the data used to arrive at the 2,818,356 figure so that we can either verify its
accuracy or determine the cause for the discrepancy.

Based on this alleged discrepancy, you suggest in the second paragraph on pages ii, and again on
page 13, that we should improve our processes for collecting performance data. You made the
same suggestion in other recent performance indicator audits (see, for example, your review
Performance Indicator Audit: Electronic Service Delivery (A-15-10-11073)). You have not
identified any significant findings supporting this suggestion; therefore, you should remove the
cited paragraphs from the report.

[In addition to the information listed above, SSA also provided technical comments
that have been addressed, where appropriate, in this report.]




Performance Indicator Audit: Disability Process (A-15-10-11074)
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
